No. 19-866
IN THE SUPREME COURT OF THE UNITED STATES
ALAN SINGER, Petitioner
v.
MONDEX CORPORATION, Respondent
CERTIFICATE OF SERVICE
I, Alan Singer, Petitioner/In Pro Se, do declare that on this date, this

1y

day

of May, 2020, as required by Supreme Court Rule 29, I have served the PETITION
FOR WRIT OF CERTIORARI, APPENDICES, and CERTIFICATE OF COMPLIANCE
on Respondent’s counsel of record and the Clerk of the Supreme Court, by delivery to
a third-party commercial carrier, UPS, for delivery within 3 calendar days to:
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, D.C. 20543
Anthony J. Mullan, Esq.
The Mullan Law Firm, P.C.
1355 Ramar Road, Suite 16
Bullhead City, Arizona 86442
Counsel for Respondent, Mondex Corporation
I declare under penalty of perjury that the foregoing is true and correct
Executed on this /j/~ day of May , 2020.

Alan Singer
4825 Highway 95, Suite 2-120
Fort Mohave, Arizona 86426
(928) 377-4508
E-mail: alansinger7@gmail.com

